C'OCKLE
2311 Douglas Street CA L ega 1 Briefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 Nos. 20-82 & 20-96

KANE COUNTY, UTAH, AND THE STATE OF UTAH,
Petitioners,
Vv.

UNITED STATES OF AMERICA,
SOUTHERN UTAH WILDERNESS ALLIANCE,
AND THE WILDERNESS SOCIETY,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 9th day of November, 2020, send
out from Omaha, NE 5 package(s) containing 3 copies of the REPLY BRIEF FOR PETITIONERS in the above entitled case.
All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
SEAN D. REYES SHAWN T. WELCH
Utah Attorney General Counsel of Record
STANFORD E. PURSER HOLLAND & HART, LLP
Deputy Solicitor General 222 South Main Street,
ANTHONY L. RAMPTON, Suite 2200
KATHY A.F. DAVIS Salt Lake City, Utah 84101
Assistant Attorneys General Telephone: (801) 799-5800
OFFICE OF THE stwelch@hollandhart.com
ATTORNEY GENERAL Counsel for Petitioner
Utah State Capitol Complex Kane County, Utah
350 North State Street.
Suite 230
Salt Lake City, Utah 84114-
2320
Telephone: (801) 366-0260
uag@agutah.gov
spurser@agutah.gov
arampton@agutah.gov
kathydavis@agutah.gov
Counsel for Petitioner
State of Utah

Subscribed and sworn to before me this 9th day of November, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY State of Nebraska Q Leva Ke Ch
RENEE J. GOSS .

 

My Comm. Exp. September 5, 2023

 

Notary Public Affiant 40296
Kane County, Utah, and the State of Utah
ve

United States of America

Service List

Defendant/Appellee United States of America
James A. Maysonett

U.S. Department of Justice

Environment & Natural Resources Division

Room 2341

950 Pennsylvania Avenue, NW

Washington, DC 20530

Telephone: 202-305-0216
james.a.maysonett@usdoj.gov

Joseph H. Kim

United States Department of Justice
P.O. Box 7611

Washington, DC 20044-7611
Telephone: 202-305-0207

joseph. kim@usdoj.gov

Intervenor-Defendants/Appellants Southern Utah Wilderness
Alliance and The Wilderness Society

Chad Robert Derum, Esq.

Jess Krannich

Trevor J. Lee

Manning Curtis Bradshaw & Bednar

136 East South Temple, Suite 1300

Salt Lake City, UT 84111

Telephone: 801-363-5678

cderum@mc2b.com

jkrannich@mc2b.com

tlee@mc2b.com

Stephen Bloch

Southern Utah Wilderness Alliance
425 East 100 South

Salt Lake City, UT 84111
Telephone: 801/486-3161
steve@suwa.org
Jeffrey L. Fisher

Brian H. Fletcher

Pamela S. Karlan

Stanford Law School Supreme Court
Litigation Clinic

559 Nathan Abbott Way
Stanford, CA 94305
650.723.2465
jlfisher@law.stanford.edu
bfletcher@law.stanford.edu
karlan@stanford.edu
